                          OFFICE OF THE INSPECTOR GENERAL
                          CORPORATION FOR NATIONAL AND
                                COMMUNITY SERVICE




                             PRE-AUDIT SURVEY OF THE
                         VERMONT COMMISSION ON NATIONAL
                             AND COMMUNITY SERVICE

                               OIG Audit Report Number 01 -26
                                     October 13. 2000




                                         Prepared by:

                                         KPMG LLP
                                     2001 M Street N.W.
                                    Washington, DC 20036

                             Under CNS OIG MOU # 98-046-5003
                                With the Department of Labor
                                DOL Contract # J-9-G-8-0022
                                     Task # B9GOV203




This r$port was issued to Corporation management on January 31, 2001. Under the laws and
reguladions governing audit follow up, the Corporation must make final management decisions
on the1 report's findings and recommendations no later than July 30, 2001, and complete its
correct/lve actions by January 3 1, 2002. Consequently, the reported findings do not necessarily
repres&ntthe final resolution of the issues presented.
                                                                                           CORPORATION
                                Office of Inspector General
                                                                                           FOR NATIONAL
                      Corporation for National and Community Sewice

                             Pre-Audit Survey of the
                Vermont Commission on National and Community Service
                          OIG Audit Report Number 01-26

Introduction
The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.
Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although the
Corporation began state commission administrative reviews in 1999, the Corporation, historically, has
not carried out a comprehensive, risk-based program for grantee financial and programmatic oversight
and monitoring. It is also unlikely that AmeriCorps programs are subject to compliance testing as part
of state-wide audits under the Single Audit Act due to their size relative to other state programs.
Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on
the state commissions' operations and funding. The surveys are designed to provide a preliminary
assessment of the commissions' pre-award and grant selection procedures, fiscal administration, and
monitoring of subgrantees (including AmeriCorps Member activities and service hour reporting). They
are a tool that allows OIG to plan future audit work related to the state commission's operations. For
each survey, we also issue a report to the state commission and to the Corporation communicating the
results and making recommendations for improvement, as appropriate.
 We engaged KPMG LLP toperform the pre-audit survey of the Vermont Commission on National and
 Community Service. Based on the limitedproceduresperformed, KPMG concluded that the Commission
 administers an open, competitive process to select national service subgrantees. However, KPMG
 recommended improvements in the awardprocess and in the Commission's grantfiscal administration.
 Moreover, KPMG concluded that the Commission lacks adequate controls to evaluate its subgrantee's
fiscal compliance. Consequently, this report also recommends that the Corporationfollow-up to ensure
 appropriate corrective actions are put into place to correct the conditions reported herein, the
performance of a full-scope auditfor program years 1994-1995 through 1996-1997, and limited scope
 audit procedures for more recent program years.
CNS OIG reviewed the report and work papers supporting its conclusions. We agree with the findings
and recommendations presented therein.




                                                                                       Inspector General
                                                                                       1201 New York Avenue, NW
                                                                                       Washington, DC 20525
Both the Vermont Commission and the Corporation responded to this report. Their responses are
included as Appendices C and D, respectively. Both responses express agreement with certain of the
findings and disagree with others. KPMG reviewed the responses and revised certain portions of the
informstion in the report based on documentation provided by the Commission. However, as described
on page 4 of their report, KPMG did not significantlyrevise the findings and recommendationsbecause
they believe that the recommendations, if implemented, will result in improvements to internal controls
over Cbmmission operations. OIG concurs.
                                      Pre-Audit Survey of the
                        Vermont Commission on National and Community Service
                                         Table of Contents



RESULTS IN BRIEF .......................................................................................................................   1

BACKGROUND .............................................................................................................................
                                                                                                                                    2

OVERVIEW OF THE VERMONT COMMISSION ......................................................................3

OBJECTIVES. SCOPE. AND METHODOLOGY .........................................................................                               3

FINDINGS AND RECOMMENDATIONS .................................................................................... 5

APPENDIX A. COMMISSION FUNDING: 1994-95 THROUGH 1999-2000 .........................A .1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
                                                                                                                           B .1
   METHODOLOGY ................................................................................................................

APPENDIX C. VERMONT COMMISSION ON NATIONAL AND
                                                                                                         C .1
   COMMUNITY SERVICE RESPONSE ..............................................................................

APPENDIX D. CORPORATION RESPONSE ......................................................................D .1
              2001 M Street. N W                                                       Telephone 202 533 3000
              Washington, DC 20036                                                     Fax 202 533 8500




October 13, 2000


Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP (KPMG) performed a pre-audit survey of the Vermont Commission
on National and Community Service (the Commission). The primary purpose of this survey was
to prov~dea preliminary assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission; and
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours and program accomplishment reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the C:ommission's systems for administering its AmeriCorps
grants:

       The Commission administers an open, competitive process to select national service
       subgrantees. However, the Commission does not have policies and procedures in place
       to review applicants' financial systems and controls in place during the selection
       process.

       The Commission did not have adequate controls in place over the administration of the
       grant funds in program years 1994-95 through 1996-97. The Commission presently does
       not have written policies and procedures in place that accurately reflect all current
       activities of staff members and contractors in the day-to-day administration of the grant
       funds. Such procedures should include calculation and reporting of grant matching
       requirements and preparation and submission of Financial Status Reports (FSRs).
       Additionally, we questioned costs of $1,48 1 as unallowable related to fees for a
       teleconference of the National & Community Trust Act Briefing and proposal
       writing/consultation fees to assist in the AmeriCorps and Learn & Serve applications for
       program year 1994-95.




                                                                                   1

1111               aKPMG LLP ofKPMG
                     member     KPMG  nr?rnaronal
                                    LLP a U S Imrerl l i a b ~assocatlon
                                                  a bwlss     l ~pailnershp
                                                                  y           IS
        The Commission does not have adequate controls in place to evaluate and monitor
        subgrantees for fiscal compliance. For example, the Commission does not have a
        process in place for testing expenditure transactions and in-kind costs. However,
        beginning in program year 1997-98, evidence exists to support adequate programmatic
        monitoring of subgrantees, except for the verification of the accuracy of performance
        measures reported by subgrantees.

The section below entitled Findings and Recommendations describes the weaknesses noted
above in further detail and addresses additional issues noted during the survey.

Based on our preliminary assessment, we recommend the performance of a full scope audit for
program years 1994-95 through 1996-97 and a limited scope audit for program years 1997-98
through 1999-2000 with a focus on allowable costs and matching requirements.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put into place to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the
Commission.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
Members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Carporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require. in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.

Overview of the Vermont Commission

The Vermont Commission on National and Community Service, located in Montpelier, Vermont,
has received AmeriCorps grant funds from the Corporation for National and Community Service
since program year 1994-95. The Commission operates as part of the State of Vermont's Office
of the Governor and has 2.5 full time equivalent (FTE) employees, including an Executive
Director, a Program Officer and a part-time Information Officer. In addition, the Commission
has a part-time accountant under contract and a full-time Learn & Serve contractor. The
Executive Director has been with the Commission since February 1996, at which time the
Commission experienced a significant turnover of key personnel.

As part of the Office of the Governor of the State of Vermont, the Commission is annually
subjeat to the OMB Circular A-133 audit performed by the Vermont State Auditors' Office.
However, the Commission's AmeriCorps grants have never been tested as a major program.

The C'ommission provided us with the following information for all program years:

                                                                             Number of
                                                                             Subgrantees
                              Total Corporation         Number of          Subject to A- 133
        Program Year              Funding               Submantees            Audits(*)




(*) Determination is based solely on dollar value of federal awards passed through the
Commission for each program year. Remaining subgrantees could be subject to an OMB
Circular A-133 audit if they received additional federal grant funds from other sources.

Appendix A contains more detailed information on funding received from the Corporation
during program years 1994-95 through 1999-2000.

Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide an assessment of the systems and procedures in place at the
Commission for administering its AmeriCorps grants and for monitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment of:

    the adequacy of the pre-award selection process;
    the fiscal procedures at the Commission; and
m a
    the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
    Member activities and service hours and program accomplishment reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

    reviewing applicable laws, regulations, grant provisions, the Corporation's State
    Administrative Standards Tool, and other information to gain an understanding of legal,
    statutory and programmatic requirements;

    reviewing OMB Circular A-133 reports and current program year grant agreements for the
    Commission;

    obtaining information from Commission management to complete flowcharts documentmg
    the h~erarchyof AmeriCorps grant funding for program years 1994-95 through 1999-2000;
    and

    performing the procedures detailed in Appendix B over the Commission's internal controls,
    selection of subgrantees, administration of grant funds, and evaluation and monitoring of
    grants.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission using inquiries, observations, and examination of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on October 13,2000.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an oplnion on the controls at the Commission, or on its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financ~alstatements, or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

 We provided a draft of this report to the Commission and the Corporation. The Commission's
 and Corporation's responses to our findings and recommendations are included as Appendix C
 and D respectively. If sufficient documentation was provlded to support the change, we
 incorporated the corrections in factual information referred to in the Commmlon's response in
 this report. We also clarified the wording related to our finding on level of access authority to
 the Web Based Reporting System (WBRS). However, we continue to believe our
 recommendations presented in the Findings and Recommendations section of this report, ~f
 implemented, will result in improvements to internal controls over Commission operations.
 Accordingly, that section of this report remains unchanged, except for the clarification noted
 above.
Findings and Recommendations

Selecting Subgrantees

According to 45 CFR Section 2550.80 (b)(l), "Each State must administer a competitive process
to select national service programs to be included in any application to the Corporation for
funding."

The Commission administers an open, competitive process to select national service subgrantees.
The Commission advertises funding availability through mailing lists and the Commission's web
site. In addition, selection officials sign conflict of interest statements annually, receive an
instruction package, and use a standard form to evaluate each applicant. However, we noted the
following area for improvement related to the selection of subgrantees process.

       Assessment of Applicants' Financial Systems

The Commission does not assess the adequacy of applicants' financial systems and controls in
place to administer a Federal grant program prior to making award decisions. Lack of
assessment of applicants' financial systems and controls may lead to instances of subgrantees'
non-compliance with Federal requirements and inability to administer Federal funds
appropriately.
        Recommendation
We recommend the Commission establish policies and procedures to review applicants' financial
systems and controls to ensure that selected subgrantees have adequate systems and procedures,
in place to properly administer Federal funds awarded.


Administering Grant Funds

The Corporation's regulations state that, as part of the grant administration process, "Grantees
are responsible for managing the day-to-day operations of grants and subgrant supported
activities. Grantees must monitor grant and subgrant supported activities to assure compliance
with Federal requirements and that performance goals are being achieved. Grantee monitoring
must cover each program, function or activity" (45 CFR Section 2541.400(a)).

The Commission has developed certain policies and procedures intended to provide reasonable
assurance that grant funds received from the Corporation are properly administered. Procedures
are in place to manage cash drawdowns and disbursements to subgrantees. The Commission's
personnel appear to have adequate skills and experience to manage and administer Corporation
grant funds. However, we identified the following areas for improvement within the grant
administration process.

        Policies and Procedures Are Not Properly Documented

Although the Commission has some written procedures as mentioned above, they do not
necessarily reflect the actual activities that take place in administering the day-to-day grant
operations. The Commission has relied on various checklists, forms and spreadsheets that have
either been inherited from prior staff/contractors or devised as needed with no formal procedures
instructing Commission staff on their proper use. Some of these procedures include manual,
labor-intensive spreadsheets used to prepare quarterly FSRs. The lack of comprehensive written
procedures to instruct Commission staff and contractors may lead to inconsistent or inaccurate
results, especially if the Commission experiences turnover or prolonged absenteeism of key
personnel.

       Lack of Adequate Procedures to Report Matching Expenditures

The Commission does not have adequate procedures in place to properly report its matching
expenditures to the Corporation. The Commission achieves its expenditures matching
requirements with a combination of in-kind costs and administrative expenditures such as state
funded payroll related to AmeriCorps grants. The Commission could not provide adequate
documentation to support the total amount of salaries claimed as match reported in the FSR for
the 4thquarter of 1999 because the amount reported-as administrative expenditures was estimated
by taking the total needed to cover the Federal Share of Outlays minus in-kind costs.

According to 45 CFR Section 2541.240 (b)(6), "Costs and third party in-kind contributions
counting toward satisfying a cost sharing or matching requirement must be verifiable from the
records of grantees and subgrantees or cost-type contractors. These records must show how the
value placed on third party in-kind contributions was derived."

        Level of Access Authority to WBRS

We determined that the Commission has implemented WBRS. The Commission, along with the
Corporation, has established a set of controls for the use of WBRS by the subgrantees. Most of
these controls are embedded in the system, such as automated calculation of costs in its Financial
Status Reports, tracking of ArneriCorps Members' hours and projection of hours to fulfill
requirements, and automated carry-forward of financial and reporting data from prior periods.

However, we noted that although the Commission has prescribed distinct segregation of duties
between different users of WBRS, all the users were granted "Executive Director" access
authority, as denoted on a user profile printout from WBRS dated October 6, 2000. The integrity
of the report process through WBRS could be compromised with users gaining access to levels
of authority that do not coincide with their employee profiles.

        Unallowable Cost in Program Year 1994-95

According to OMB Circular A-87 Section 34 Proposal Costs, the cost of preparing proposals for
potential Federal awards are allowable. Proposal costs should normally be treated as indirect
costs and should be allocated to all activities of the governmental unit utilizing the cost
allocat~onplan and indirect cost rate proposal. However, proposal costs may be charged directly
to Federal awards with the prior approval of the Federal-awarding agency.

The Commission directly charged unallowable costs of $1,481 related to fees for a
teleconference of the National & Community Trust Act Briefing, incurred prior to its first grant
award, ,and for unapproved proposal writing/consultation to assist in the preparation of
AmeriCorps and Learn & Serve applications for program year 1994-95. These unallowable costs
constitute questioned costs.
        Lack of Adequate Supporting Documentation for Program Years 1994-95
        through 1996-97

Although, the Commission was able to provide adequate documentation in the areas noted below
for program years 1997-98 through 1999-2000, the Commission could not provide adequate
documentation to support drawdowns, payroll transactions, and allowability of costs related to
Amencorps, Learn & Serve, PDAT, and Administration grants during program years 1994-95
through 1996-97. We also noted that payroll documentation amounting to $41,297 for program
year 1994-95 was not available for review. In addition, from program years 1994-95 through
1996-97, the Commission did not require subgrantees to submit detailed invoices separating
costs among the different cost categories as support for reimbursement requests.

According to OMB Circular A-87, Section C. Basic Guidelines Part 1," Factors affecting
allowability of costs," adequate documentation is a general criteria for costs to be allowable
under Federal awards.

        Control Weaknesses Related to Financial Status Reports

According to 45 CFR, 2541.410 (b)(4), "When reports are required on a quarterly or semiannual
basis, they will be due 30 days after the reporting period."

During our review of 69 selected FSRs for programs years 1994-95 through 1999-2000, we
noted that three PDAT and eight AmeriCorps consolidated FSRs were not submitted on a timely
basis. We also noted that nine Administrative FSRs and six PDAT FSRs for program years 1994-
95 and 1995-96 were missing from the Commission's files. In addition, we noted inconsistencies
in the FSR approval process at the subgrantee level; more specifically, it was not clear whether
approval should come from the Program Director or the Fiscal Director.

        Lack of Control Procedures over Maintenance of Equipment Purchases

The Commission has not developed control policies and procedures to monitor and maintain
equipment. Specifically, no procedures are in place to document or maintain equipment
purchases, equipment dispositions or equipment transferred to subgrantees. In addition, the
Commission has never performed a full physical inventory of equipment on-hand. Since 1994,
approximately $25,000 in equipment purchases has been charged to the Corporation grants.

Accordmg to 45 CFR Section 2541.320 (d)(l), property records must be maintained that include
information such as description, value, holder of title, serial number and acquisition and disposal
dates. In addition, a physical inventory of the property must be taken and the results reconciled
with the property records at least once every two years (45 CFR Sect~on2541.320 (d)(2)).

        Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its grant
admin~strat~on
            process as follows:

    Develop and implement written procedures that accurately reflect all current activities of
    staff members and contractors in the day-to-day administration of grant funds. Such
   procedures should include monitoring of grant matching requirements and preparation and
   subm~ssionof FSRs.
   Revise its method of reporting matching costs and ensure that adequate records support
   matching costs.
   Develop and implement control procedures to grant the appropriate level of access authority
   to the different users of WBRS.
   Develop and implement written procedures that ensure compliance in the preparation and
   submission of FSRs. In addition, we recommend that the Commission instruct its
   subgrantees to have FSRs approved by the fiscal director.
   Develop and implement adequate inventory controls, including detailed property records and
   periodic physical inventory counts.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for monitoring subgrant-supported activities to
assure compliance with applicable Federal requirements and that performance goals are bemg
achieved. The Commission has established controls to evaluate and monitor subgrantees, which
include reviewing program and financial reports and scheduling annual site visits for each
subgrantee during the grant period. However, we identified the following areas for improvement
related to the evaluation and monitoring of subgrantees.

       Missing Program Review Documentation

 The Commission could not provide adequate documentation supporting selected annual
 program and fiscal reviews. Of 15 subgrantees' site visit reviews, 2 program review checklists
 for program years 1994-95 through 1995-96 and 10 fiscal review checklists for program years
 1994-95 through 1999-2000 were missing from the Commission's files.

 We also noted that 2 of the 5 fiscal checklists located were prepared by the subgrantee without
 the Commission verifying their accuracy. In addition, the Commission does not consistently
 document subgrantee matching requirement reviews. Documentation for three of five
 subgrantees sampled did not mention any review of matching requirements.

        Lack of Expense Testing during Site Visits

The Commission relies on the results of its subgrantees' OMB Circular A-133 audits as part of
its monitoring process. Consequently, the Commission does not include expenditure transaction
and in-kind cost testing as part of its annual fiscal review of subgrantees. However, the
AmeriCorps grants administered by the Commission's subgrantees have never been tested as
major programs during these OMB Circular A-133 audits. As a result, instances of material
noncompliance related to the subgrantees' Federal and matching expenditures, of which the
Commission is not aware, might ex~st.
       Review of Performance Measures and Program Results

The Commission does not verify program result stat~sticsfound on the subgrantees' progress
reports and Annual Accomplishment Reports. The Commission has not inquired of subgrantees
what type of documentation exists to support program results. In addition, site visits to
subgrantees do not include the verification of program results reported by the subgrantees.

       Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its
evaluation and monitoring of subgrantees as follows:

    Develop and implement procedures to document results of site visits, including strengths,
    weaknesses, concerns, recommendations, and any necessary follow-up requirements.
    Develop and implement procedures to document the review of Members timesheets, and
    types of activities and service hours performed during fiscal site visits. These procedures
    should require identification of sample selection criteria and items actually selected for
    testing.
    Develop and implement a process for testing expenditure transactions and in-kind cost
    during fiscal site visits to subgrantees.
    Develop and implement written procedures to verify the accuracy of reported subgrantee
    performance measures and program results during site visits.




This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
Vermont Commission for National and Community Service, and the United States Congress and
is not intended to be and should not be used by anyone other than these specified parties.
                                 Commission Funding                           Appendix A

The table below and the flowcharts on the following pages depict the Commission's funding
over the past six program years.

Funding
Source          1994-95        1995-96       1996-97       1997-98        1998-99      1999-2000

CNS
Formula
Grant Funds

CNS
Competitive
Grant Funds

CNS Learn
and Serve
Funds

CNS
Educational
Only
Awards

CNS PDAT
Funds

CNS Admin
Funds

Promise
Fellows

State
Matching
Funds*




*Amounts reported represent cash matching funds only.
                                 Commission Funding                                         Appendix A




                                 Corporation for National Service

Funding to the Vermont Commission on National and Community Service - 1994-95




        ArneriCorps         Amencorps         Learn and       PDAT                 Admin~stration
         Formula            Cornpet~tive        Serve         Funds                   Funds
           Funds              Funds            Funds
         $271,478            $250,000          $95,000        $10,000                $292,553

          Match                Match           Match                                  Match
           $0                   $0              $0                                     $0




r           t                     v              v              '
                                                                I                      t
             Total CNS Funds Retained by the Commission $302,553

I                           Total Commission Matching Funds $0

                  Total CNS Funds Awarded to Sub-grantees $616,478

I




                            '
                            I                    '
                                                 I                  'I
                       AmeriCorps           AmeriCorps          Learn & Serve.
                        Formula:            Cornpetitwe:
                        $271,478             9250,000              $95,000

                          Match                Match                Match
                         $115,194             $260.495              $7,033

                      Total # of SUBS      Total # o f SUBS    Total # of SUBS
                              1                    I                   4

                      Total # of Sites     Total # of Sites     Total # of Sites
                             12                   1                     4
                           Commission Funding                                       Appendix A




                          Corporation for National Service

punding to the Vermont Commission on National and Community Service- 1995-96




                I                        I             I                        I
            Arner~Corps            Learn and        PDAT                   Administration
             Formula                 Serve          Funds                     Funds
              Funds                  Funds                                   $97,209
             $284,667               $88,000        $65,000

              Match                  Match                                     Match
               $0                     $0                                      $24,824




                v                       v            v                          v
  I          Total CNS Funds Retained by the Commission $162,209

                      Total Commission Matching Funds $24,824

                Total CNS Funds Awarded to Sub-grantees $372,667



                                 *
                            AmeriCorps
                                                           *
                                                   Learn & Serve:
                             Form~~la:
                             $ 284,667                5 88,000

                               Match                    Match
                              $102,530                 $1 1,894

                           Total # of SUBS         Total # of SUBS
                                   I                       12

                           Total # o f Sites       Total # o f S ~ t e s
                                  14                      12
                          Commission Funding                        Appendix A




                         Corporation for National Service

Funding to the Vermont Commission on National and Community Service- 1996-97




                                                               I
           AmeriCorps         Learn and                        Adm~n~stration
            Formula                              Funds            Funds
             Funds              Funds
            $299,872           $87,963           546,438




           4
             Match             Match                              Match
                                                                 $23,000




            Total CNS Funds Retained by the Commission $106,873

                     Total Commission Matching Funds $23,000

              Total CNS Funds Awarded to Sub-grantees $387,835
                         Commission Funding                          Appendix A




                        Corporation for National Service

Funding to the Vermont Commission on National and Community Service- 1997-98
                                                                                    I




 Amencorps                                 Educat~onal     PDAT        Administration
  Formula                                  Only Awards     Funds          Funds
   Funds                                     $28,690
  $420,7 14                                                $84,000       $108,129

   Match                                      Match                        Match
                                               $0                         $27.000
    $0


                                                I             I              I




              Total CNS Funds Retained by the Commission $192,129

                    Total Commission Matching Funds $27,000

               Total CNS Funds Awarded to Sub-grantees $1,197,070
                                                  Commission Funding                                    Appendix A




                                                Corporation for National Service

 I   Funding to the Vermont Commission on National and Community Service- 1998-99
                                                                                                                                I
 I                                                                                                                              I




Amer~Corps            Amencorps                 Learn and     Educatmnal         PDAT           Adrn~n~stration        Prom~seFellows
 Formula              Competitive                 Serve       Only Awards        Funds             Funds                  $95,000
  Funds                 Funds                     Funds         $24,749                           $108,129
 $499,757              $545,943                  $95,000                       $19,975
                                                                                                                          Match
     Match                  Match                  Match        Match                               Match                   $0
      $0                     $0                     $0            $0                               $52,608




                              v                         v         v                v                v
       I*                     Total CNS Funds Retained by the Commission $128,104
                                                                                                                            I

                                       Total Commission Matching Funds $52,608

                                  Total CNS Funds Awarded to Sub-grantees $1,260,449

       I                                                                                                                    1




                     'I
              Amencorps
                                              v
                                       AmeriCorps
                                                                  '
                                                                  I
                                                            Learn & Se~ve.
                                                                                      v
                                                                               Educational
                                                                                                          *
                                                                                                        Prom~se
               Forn~ula:               Competitive:                            Only Awards              Fellows:
               $499,757                 $545,943                995.000          $24,749                $95,000

                 Match                     Match .              Match               Match               Match




           1 :if 1 1 1 1 1 1 1 1 1
                $253,831                  $247,559             $271,130              $0                  $0

             Total #of SUBS           Total # of SUBS       Total # of SUBS   Total # of SUBS      Total # of SUBS


             Total        sites       Total #:;fsites       Total #:ifsttes   Total #:;fsites       Total #lof sites
                                         Commission Funding                                              Appendix A




                                         Corporation for National Service

 Funding to the Vermont Commission on National and Community Service- 1999-2000




                                                                            I
                                                                                                   I
Amer~Corps         Amencorps             Learn and     Educat~onal                PDAT             Adrnin~strat~on        'rom~seFellows
 Fcrmula           Cornpet~twe             Serve       Only Awards                Funds               Funds                   $97,400
  Funds              Funds                 Funds         $24,999                                     $107,316
 $370,764           $433,936              $95,000                                $86,000

  Match                 Match               Match         Match                                        Match                  Match
   $0                    $0                  $0             $0                                        $54,880                   $0




     *                   v                   v             v                        v                                         .c
    I                   Total CNS Funds Retained by the Commission $193,3 16
                                                                                                                               I
                                 Total Commission Matching Funds $54,880

                            Total CNS Funds Awarded to Sub-grantees $1,022,099




                                       +
                                 Amencorps           Learn & Serve:
                                                                            $.
                                                                                Educational               Prom~se
             Formula:            Competitive:                                   Only Awards               Fellows
             $370.761             $433,936               $95,000                  $24,999                 597,100

              Match                  Match                Match                     Match                   Match
             $273,773               $254.3 16              $0                        $0                      SO

          Total # of SUBS       Total # of SUBS      Total # of SUBS        Total # o f SUBS          Total # of SUBS
                  2                     2                    12                     3                         I

          Total # of S~tes       Total # o f Sites   Total # of S ~ t e s       Total # of Sites       Total # of S ~ t e s
                 30                     17                  I?                         19                     7
                           Detailed Engagement Objectives
                                  and Methodology                                 Appendix B

Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of rel~ablefinancial statements and Federal reports; (2) malntain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; eligibility; matching; period of availability of
Corporation funds; suspension and debarment; subrecipient monitoring; and reporting by the
Comm~ssionto the Corporation. We then interviewed key Commission personnel to assess the
Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    st:rvice subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we Interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
determme if selection officials signed conflict of interest forms for each subgrantee applicant
tested annually and maintained by the Commission.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration;
                          Detailed Engagement Objectives
                                 and Methodology                                 Appendix B

   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, progress reports. enrollment and exit
   forms, change of status forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports and progress
reports submitted by subgrantees, as well as Financial Status Reports submitted by the
Commission to the Corporation, to preliminarily assess the accuracy of submitted Financial
Status Reports and progress reports. We also preliminarily assessed whether the Commission's
implementation of Web Based Reporting System (WBRS) had enhanced the grant administration
process.

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    hlembers and allowability of costs incurred and claimed under the grants by subgrantees
    (~ncludingreported match));

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A-1 33 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals;

    make a preliminary assessment of internal controls over servlce hours and program
    abcomplishment reporting; and
                         Detailed Engagement Objectives
                                and Methodology                               Appendix B

   make a preliminary assessment of the adequacy of the procedures In place to evaluate
   whether subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A- 133 audit
report$ from subgrantees.
     VERMONT COMMISSION ON NATIONAL AM) COMMUNITY SERVICE
                                Office of the Governor
                                National Life Building
                                      Drawer 33
                               Montpelier, VT 05633-4801
                                     Tel.: (802) 8284982
                                     Fax: (802) 828-4988
                                    TDD: (802) 828-3345
                                   January 10,2001




Ms. Luise Jordan, Inspector General
Officleof Inspector General
1201 New York Avenue, NW
Washmgton, DC 20525

Dear Ms. Jordan,

I am writing in response to receipt of your letter of December 14,2000 which included a
draft report of the recent pre-audit survey of the Vermont Commission on National and
Community Service. Please consider t h s letter to be the separate response, per your
suggestion, intended to correct errors and clarify facts.

On page 3 in the Overview of the Vermont Commission section, the first paragraph
includes a sentence saying the Commission has a hll-time Learn & Serve contractor.
The Vermont Commission actually contracts with an individual to work part-time on the
Learn & Serve grant. Also in the same section on page 3, Total Corporation Funding for
Program Year 1996-97 should be $494,708 and for Program Year 1998-99 should be
31,338,553. In the Number of Subgrantees column, the number for Program Year 1997-
98 should be 19, the number for Program Year 1998-99 should be 21 and the number for
1999-2000 should be 20.

On page A.1 of the draft issue, the first column titled 1994-95 includes $68,641 as State
Matchng Funds. During that ye& VTCNCS had no State Matchng Funds. The $68,641
was in-kindmatch. The total of this column should be $919,031 with $0 for State
Matching Funds. The other figures on thls line for all other years are State Matchmg
Funds and to include this $68,641 would be inconsistent..

Also on page A. 1, CNS Formula Grant Funds for 1998-99 were $449,7.5,2.--Tketotak.lf        -- -'7
the qolumn should be recalculated to be $1,39 1,16 1.

                                                                                                 I
Vermont Response
January 10,2001
Page 2

On page A.2, the Total Commission Matching Funds of $68,641 appears again. This
figure is in-kind match as stated previously.

On page A.5, in the Educational Award Only box, Total # of SUBS should be 4 and Total
# of Sites should be 22.

On page A.6, the AmeriCorps Formula Funds should be $449,757 and the Total CNS
Funds Awarded to Sub-grantees recalculated to $1,2 10,449. Also, several changes are
requkred in the Educational Award Only Awards box. The correct award figure is
$24,749, SUBS should be 4 and Sites should be 19. In the Promise Fe!lows box, :he
Total # of Sites should be 8.

On page A.7, in the Educational Only Awards box, the Total # of SUBS should be 3 and
the Total # of Sites should be 19. In the Promise Fellows box, the Total # of Sites should
be 7.

Also, pages A.2 through A.7 all show the Vermont Commission awards to subgrantees
the entire amount of the Learn & Serve grant. This is not accurate as VTCNCS awards to
subgrantees only the portion of the Corporation-approved Learn & Serve grant intended
for subgrants. VTCNCS uses the Corporation-approved Administration and Training and
Technical Assistance portion of the Learn & Serve grant for administration and training
and techmcal assistance.

The match figures included for the AmeriCorps Formula and Competitive grants and the
Learn & Serve grant detailed at the bottom of each chart in Appendix A are not
necessarily the numbers supplied to KPMG by Commission staff. Given the fact so
many of the grants are extended and often funded by carryover, it is difficult to separate
each grant and the respective match. It appears match has been spread ratably over the
program years of some grants, the end result being numbers we do not recognize at first
glance.

If you have questions or concerns please do not hesitate to call me at the phone number
listed above.

                                              Sincerely,



                                              Jane ~ r e i l a n dWilliams
                                              Executive Director
                     Vermont Commission on National and
                        Community Service Response




Page 6 includes a section called "Level of Access Authority to W R S " . The Vermont
Commission did not set up access authority to the WBRS system, as the system belongs
to the Corporation for National and Community Service. User access, including access
for an Aguirre staff person, was entered into the W R S system by Aguirre International
personnel. As you are aware, Aguirre International is a consulting company hired by the
Corporation for National and Community Service. This section implies the Vermont
Commission is responsible for WBRS access and consequent potential compromise of
WBRlS report integrity though it is actually the responsibility of Aguirre and the
Corporation. Therefore, we do not believe ttus section and respective recommendation on
page 8 should be included in the report at all. This is an issue for the Corporation for
National Service and Aguirre International, not the Vermont Commission.

Also on page 6, is a section called "Lack of Adequate Procedures to Report Matching
Expenditures". In the respective recommendation on page 8, KPMG advises VTCNCS to
revise the method used to report matching costs. Though we do not believe our method
of reporting match is inaccurate, which we made known in our first response to the
recommendation, we did agree to change our method of calculation and follow an
algorithm devised by KPMG. We explained this to the KPMG auditors during their
fieldwork. They said they did not have such an algorithm for us to follow. We then
offered to follow an algorithm devised by the Corporation for National and Community
Servlce. The auditors responded the Corporation would not have such an algorithm
either. So, we have offered to make changes to our match reporting method as we have
been told we have been doing it improperly but no one is forthcoming with instructions
as to how to do it ~roperly.I am sure you can imagine our frustration posed with thls
situation. Consequently, we believe this section on page 6 and the respective
recommendation on page 8 should be removed from the report.
                                                                     Appendix D

Memorandum

TO:                                                                            Service   C 0R P 0 R A T I 0 :

                                                                                         FOR NATIONA
THRU:                                                                                    ~ S E R V I C


FROM:          Peter Heinaru, Director, AmeriCorps State

DATE:          January 16, 200 1

SUBJECT:       Comments on the OIG Draft 01-126: Pre-Audit Survey of the C'ernwnt
               Commission on National and Community Service

We have reviewed the draft Pre-Audit Survey of the Vermont Commission on National and
Community Service and are pleased to note that the Vermont Commission:

        +   conducts an open competitive process for its subgrant selections; and
        +   has improved its systems for programmatic monitoring of subgrantees since
            1997-98.

This letter serves as the Corporation's response to the review of the three major areas:
Selecting Subgrantees, Administering Grant Funds, and Evaluating and Monitoring
Subgrantees. This letter comments on several of the key issues.

In the Pre-Audit Survey, one area of improvement was identified regarding the
Commission's process for Selecting Subgrantees. The finding states that the Commission.
"does not assess the adequacy of applicants' financial systems and controls in place to
administer a Federal grant program prior to making award decisions." The report
recommends that the Vermont Commission. "establish policies and procedures to reLlew
applicants' financial systems and controls in place to ensure that selected subgrantees h a ~ e
adequate systems and procedures in place to properly administer Federal funds
appropriately."

The Corporation concurs, and we will follow up with the Vermont Commission to ensure
that their process for selecting subgrantees appropriately considers the grantee's financial
systems.

In the section, Administering Grant Funds, several findings were cited with respect to the
Commission's grant administration process. The findings include: Policies and Procedures
Are Not Properly Documented; Level of Access Authority to
Program Year 1994-95; Lack of Adequore Supporring
1994-95 through 1996-97: and Lack of Control Procedures
Purchases.                                                                            wuhmma. DC
                                                                                         Telephone 202-
Ms. Luise Jordan                          Page 2                             January 16. '00 1




The first finding states that the "lack of comprehensive written procedures to instruct
Commission staff and contractors may lead to inconsistent or inaccurate results, especially if
the Commission experiences turnover or prolonged absenteeism of key personnel." The
Report recommends that the Commission "develop and implement written procedures that
accurately reflect all current activities of staff members and contractors in the day-to-day
administration of grant funds."

Where a lack of policies and procedures is identified, the Corporation will review and work
with the Vermont Commission to ensure that adequate procedures are in place.

The Report also questions the level of access granted to various users of the WBRS system.
According to the finding, "all users were granted 'Executive Director' access authority." It
recommends that the Commission, "develop and implement control procedures to grant the
appropriate level of access authority to the different users of WBRS."

The Corporation examined the user profiles in WBRS. Our review indicates that only the
Executive Director has "ED" access. Other staff members are granted "EA" (Executive
Administrator) access. The distinction being that only the Executive Director has approval
authority.

According to the finding, Unallowable cost in program year 1994-95, the "Commission
directly charged unallowable costs of $1,481 related to fees for a teleconference of the
National & Community Trust Act Briefing, incurred prior to its first grant award, and for
unapproved proposal wTiting/consultation to assist in the preparation of AmeriCorps and
Learn & Serve applications for program year 1994-95. These unallowable costs constitute
questioned costs."

The Corporation does not agree with this finding. The activities were expected as part of all
Commission activities at that time. The Corporation will work with the Vermont
Commission to amend the grant where necessary. Further, no specific approval is required
from the Corporation for charges related to "proposal writing/consultation costs."

With respect to the finding regarding a Lack of adequate supporting documentation for
program years 1994-95 through 1996-97, the Corporation will work with the Vermont
Commission to determine adequate documentation and ensure that the Commission has
sufficient guidelines for record retention.

The last finding of this section cites a Lack of control procedures over maintenance of
equipment purchases. The recommendation advises the Vermont Commission to, "develop
and implement adequate inventory controls, including detailed property records and periodic
physical inventory counts."

The Vermont Commission has created and implemented procedures for monitoring and
maiqtaining records on equipment. The Corporation will follow up with the Commission to
ensuke that the system is adequate.
Ms. i u i s e Jordan                       Page 3                              January 16. 2001



The last section in the Pre-Audit Survey review. Evaluating and Monitoring Subgrantees.
identified three areas of improvement: Missing Program Review Documentation, Lack of'
Expanse Testing during Site Visits, and Review of Performance ibleasures and Program
Results.

The first finding states that the Commission could not provide adequate documentation to
support their program and fiscal reviews. In addition, the Commission is cited for not
verifying the information prepared by the subgrantees. The recommendation is that the
Commission "develop and implement procedures to document results of site visits, including
strengths, weaknesses, concerns, recommendations, and any necessary follow-up
requirements." Further, the Commission should "develop and implement procedures to
document the review of Members timesheets, and types of activities and service hours
performed during fiscal site visits. These procedures should require identification of sample
selection criteria and items actually selected for testing." The second finding relates to a lack
of expense testing. The Pre-Audit Survey recommends that the Commission "develop and
implement a process for testing expenditure transactions and in-kind costs during fiscal site
visits to subgrantees."

As we have previously stated, the Corporation is concerned that the auditor's
recommendation is attempting to direct the establishment of arbitrary, exacting standards for
the Commission's monitoring of its programs. The report recommends that program
managers use audit techniques including sampling and the performance of specific
programmatic and fiscal reviews for every award; concepts not normally associated with or
required by Federal management standards as articulated in OMB Circulars A- 102, A- 1 10,
and A-133.

However, the Corporation advocates a risk-based strategy for monitoring programs that
considers the experience, organizational history and past performance, including both
programmatic and financial elements. The Corporation, like other Federal agencies, requires
its grantees and subgrantees to use the OMB A-133 audit as the primary basis for oversight
of its awards. These audits cover the entire operations of the subgrantee including internal
controls and compliance with laws, regulations and award provisions. For organizations not
required to have an A-133 audit, the Commission needs to consider what, if any, additional
procedures it needs to ensure adequate oversight. OMB Circular A-1 10, addressing
Administrative Standards and adopted by the Corporation in regulation, also addresses high-
risk grantees and consideration for additional monitoring by the Commission

Thus, we do not agree with a 'cookie-cutter' standard of site visit reviews and performance
of supplemental audit techniques as recommended in the report. The Corporation will
coordinate and work with the Vermont Commission to ensure that their monitoring strategy
for subgrantees is risk-based and adequate.

 The third finding addresses performance measures and program results. he Commission
 "dws not verify program result statistics found on the subgrantees' progress reports and
Vs. L u k e Jordan                       Page 4                             J a n u a ~16.100 1


Annual Accomplishments Reports." In addition. "site visits to subgrantees do not include the
verification of program results reported by the subgrantees."

The Corporation does not agree with the auditor's recommendation to implement procedures
to verify accuracy of reported subgrantee results during site visits. Verification of results
may come from and be obtained in a variety of ways such as feedback from stakeholders.
survey of service-recipients or even as part of formal or informal evaluation efforts.
